<html>
<title> - CURRENT DEVELOPMENTS IN CENTRAL ASIA</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



 
                  CURRENT DEVELOPMENTS IN CENTRAL ASIA

=======================================================================

                                HEARING

                               BEFORE THE

         SUBCOMMITTEE ON EUROPE, EURASIA, AND EMERGING THREATS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 18, 2018

                               __________

                           Serial No. 115-151

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
        
        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]        
        


Available: http://www.foreignaffairs.house.gov/, http://docs.house.gov, 

                      or http://www.gpo.gov/fdsys/
                      
                      
                      
                            _________ 
                                  
               U.S. GOVERNMENT PUBLISHING OFFICE
 30-801 PDF              WASHINGTON : 2018      
                      
                      
                      

                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                LOIS FRANKEL, Florida
SCOTT PERRY, Pennsylvania            TULSI GABBARD, Hawaii
RON DeSANTIS, Florida                JOAQUIN CASTRO, Texas
MARK MEADOWS, North Carolina         ROBIN L. KELLY, Illinois
TED S. YOHO, Florida                 BRENDAN F. BOYLE, Pennsylvania
ADAM KINZINGER, Illinois             DINA TITUS, Nevada
LEE M. ZELDIN, New York              NORMA J. TORRES, California
DANIEL M. DONOVAN, Jr., New York     BRADLEY SCOTT SCHNEIDER, Illinois
F. JAMES SENSENBRENNER, Jr.,         THOMAS R. SUOZZI, New York
    Wisconsin                        ADRIANO ESPAILLAT, New York
ANN WAGNER, Missouri                 TED LIEU, California
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia
JOHN R. CURTIS, Utah

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

         Subcommittee on Europe, Eurasia, and Emerging Threats

                 DANA ROHRABACHER, California, Chairman
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
TED POE, Texas                       BRAD SHERMAN, California
TOM MARINO, Pennsylvania             ALBIO SIRES, New Jersey
F. JAMES SENSENBRENNER, Jr.,         WILLIAM R. KEATING, Massachusetts
    Wisconsin                        DAVID N. CICILLINE, Rhode Island
FRANCIS ROONEY, Florida              ROBIN L. KELLY, Illinois
BRIAN K. FITZPATRICK, Pennsylvania
JOHN R. CURTIS, Utah


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

S. Frederick Starr, Ph.D., chairman, Central Asia Caucasus 
  Institute......................................................     4
Mr. Steve Swerdlow, researcher, Central Asia, Human Rights Watch.    20
Ms. Spaska Gatzinska, associate director, Eurasia, National 
  Endowment for Democracy........................................    28

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

S. Frederick Starr, Ph.D.: Prepared statement....................     7
Mr. Steve Swerdlow: Prepared statement...........................    23
Ms. Spaska Gatzinska: Prepared statement.........................    30

                                APPENDIX

Hearing notice...................................................    52
Hearing minutes..................................................    53


                  CURRENT DEVELOPMENTS IN CENTRAL ASIA

                              ----------                              


                        WEDNESDAY, JULY 18, 2018

                       House of Representatives,

         Subcommittee on Europe, Eurasia, and Emerging Threats,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 3:00 p.m., in 
room 2172 Rayburn House Office Building, Hon. Dana Rohrabacher 
(chairman of the subcommittee) presiding.
    Mr. Rohrabacher. The subcommittee is now not adjourned--we 
now are in session. So Mr. Meeks will have an opening 
statement. I will have an opening statement.
    If we have any other colleagues join us they will have 
opening statements. So I will begin with mine.
    So observers of Central Asia over the past 2 years have 
seen many reasons for optimism. The reformist-minded 
president--a reformist-minded president now leads Uzbekistan. 
The region's most populate country thus has, basically, an 
open-minded reformist new president.
    Kazakhstan is completing a rotation on the United National 
Security Council and last year Kyrgyzstan held competitive 
elections which resulted in a peaceful transfer of political 
power.
    Each of these are encouraging steps for the individual 
countries but also for the region. They suggest that we 
continue our positive engagement in collaborative partnership 
with those countries in the region.
    I welcome our witnesses to this afternoon's hearing on 
current developments in Central Asia, which should help us 
determine the most effective foreign policy for the United 
States.
    Problems with economic diversification, infrastructure, and 
rule of law clearly remain. But the trend lines provide much 
hope that Central Asia is becoming ever more interconnected, 
ever more prosperous and, yes, at peace with itself and with 
its neighbors.
    With the continuation of the United States and NATO mission 
in Afghanistan, Central Asian governments have been supportive 
and expressed a willingness to play a positive role in security 
cooperation, to secure borders, to stop smugglers, and to fight 
terrorist organizations.
    Through our bilateral and regional assistance programs, the 
U.S. Government is helping the governments of the five Central 
Asian states to increase security while expanding private 
enterprise, cross-border trade, and, of course, respect 
peaceful democratic dissent.
    I welcome the news and I've welcomed the news earlier this 
year but especially what's been happening in that the Uzbek 
government has not accredited a Voice of America journalist for 
the first time ever. I find that a major step forward and we 
appreciate that.
    We can hope that this is a trend which continues, of 
course, and, of course, it remains frustrating, however, that 
today Radio Free Europe, Radio Liberty is only able to operate 
in three of the five Central Asian nations, and then usually 
only with difficulty.
    While we applaud the increasing trade, economic contact, 
and economic exchanges as positive accomplishments, we must not 
turn a blind eye to politically motivated prosecutions, 
arbitrary detentions, corruption, and restrictions on freedom 
of expression. As we have our conversation about these issues 
today, it must be with the realization that we cannot take 
Central Asia for granted.
    It is a region of secular governments and enterprising 
peoples. It is a pivot to the Eurasian land mass and a 
balancing point for the entire globe.
    I would be or it would a historic setback for human kind if 
that part of the world were to be dominated by radical Islam or 
controlled through subterfuge or bribery by countries such as 
China.
    It is better for the region and better for the West if 
Central Asia continues to make progress and remains on a 
pathway to openness, prosperity, and peace.
    And before I yield to my ranking member, Mr. Meeks, let me 
just note that I have been fortunate enough to visit Central 
Asia and know them--know those people. They are to be welcoming 
and gracious people who I dearly respect.
    While we may be separated and great geographical 
differences--they are literally on the other side of the 
world--I think there is a kinship between our peoples. We share 
a frontier spirit and sweeping landscapes that spread out to 
the horizon.
    We can play a pivotal role in the development of Central 
Asia, for example, and different developments that they are 
doing and there are efforts--I'll give you an example--of the 
Central Asian Regional Electricity Market, which will help 
bring that region together and in better contact with the world 
and each other.
    We have laid a foundation for cooperation through economic 
interaction and I hope through increased American attention 
that we will continue to make progress together and in a 
partnership and a friendship we will build a better world for 
them and for all of us.
    Mr. Meeks.
    Mr. Meeks. Thank you, Mr. Chairman. It is great that we are 
having this hearing today.
    I think of often when I think of Central Asia I think of 
one great Member of Congress who was my predecessor who was the 
chair and then subcommittee--chair of the subcommittee and then 
ranking member, Eni Faleomavaega, who was--always told me that 
Central Asia did not get the attention that it should get and I 
couldn't agree with him more, now being the ranking member on 
this committee. It needs to get much more attention.
    I've had the opportunity to travel to the region many times 
and when I leave I leave with the deepest appreciation for the 
beauty of the culture of each nation, the spirit of the people, 
and the mutual interests and cooperation between the United 
States and our regional partners.
    In many ways, although too often hidden from view on our 
national stage, Central Asia nations are global leaders with 
extensive international reach--economic, political, and 
security that extend way beyond the region.
    So this hearing is extremely important. I want to thank our 
witnesses for agreeing to meet with us today and I reviewed 
your testimonies, and as a former board member, I know 
firsthand how important NED's work is and how substantial it is 
within Central Asia.
    I especially appreciate NED being represented here this 
afternoon. There has been progress in the region on democracy-
related issues.
    But, of course, there are still many concerns and I am 
looking forward to hearing from our witnesses so that we might 
get a better understanding of the challenges and the 
opportunities that exist in Central Asia.
    I know our witnesses will provide expert insight regarding 
human rights, security, and more. I hope we can also discuss 
efforts to diversify economically and geopolitically and how 
some see this diversification as a threat.
    I am interested in hearing how effective Russia's Eurasian 
economic union has been at integrating Russian markets with 
Central Asia's and to what end? Military exercises with Russia 
also seem to be increasing within the region and I would 
welcome your thoughts on that.
    Similarly, China's influence in the region is increasing at 
a steady clip. I'd like to know our witnesses' thoughts about 
the Belt and Road initiative and the impact China's investments 
will have in the near and short term, particularly with respect 
to debt increases in the region.
    As mentioned, progress has indeed been made. Yet, 
democratization and the respect for human rights will require 
our attention for years to come in order to achieve further 
advancement of these ideals.
    For those reasons, I am disappointed that the United States 
foreign assistance to the region has been cut by 35 percent in 
this fiscal year 2018's budget.
    The United States has an important role to play in 
partnering with regional stakeholders. I hope we can get a 
better understanding of how U.S. assistance is helping.
    Over the years, I've been keenly focused on the 
opportunities the United States has to increase bilateral 
cooperation in the region.
    For example, I've been a strong supporter of Kazakhstan's 
economic development efforts, the push for WTO's accession, and 
authorization to extend PNTR status to Kazakhstan.
    Both the U.S. and Kazakhstan has much to gain from greater 
economic engagement and ties, especially in non-oil energy 
business sectors such as high tech and aerospace as a way of 
creating jobs, accelerating economic growth, and security in 
both countries.
    The same is true to varying degrees throughout all of 
Central Asia and it is clear to me that there are current 
partnerships that we should maintain and there are many 
opportunities ahead.
    Engagement is the key, in my estimation. I thank you for 
being here and I look forward to hearing from the witnesses.
    Mr. Rohrabacher. Thank you, Mr. Meeks.
    We have three witnesses today and let me just note that if 
you could try to keep your spoken testimony down to about 5 
minutes and then we can have a dialogue, which is what the 
purpose is, but you can put anything else into the record. You 
can put your oral statement into the record.
    So I will introduce the three of you and we will have the 
testimony. Dr. Fred Starr is the founding chairman of the 
Central Asia Caucus Institute and the Silk Road Studies 
Program, a joint research center affiliated with American 
foreign policy--the American Foreign Policy Institute.
    He has been a well-regarded expert in this region for a 
number of decades and he's past president of the Aspen 
Institute.
    Next, we have Steve Swerdlow. He is a Central Asia 
researcher and he does that for the Human Rights Watch and he 
is an attorney with over 15 years of scholarly and human rights 
experience.
    He has worked on the region and about the region for many 
years and I understand he has just returned from a working trip 
to Uzbekistan.
    And I'll ask did you get to Samarkand while you were there? 
I've never been to Samarkand yet so I understand it's a 
beautiful, beautiful city.
    Last, we have Spaska--let me make sure I get this right--
Gatzinska--I got it right, thank you--associate director of the 
Eurasia at the National Endowment for Democracy and in that 
role she oversees programs in Central Asia and the broader 
Eurasian region.
    So I'd like to welcome all of you and we may proceed with 
Dr. Starr.

STATEMENT OF S. FREDERICK STARR, PH.D., CHAIRMAN, CENTRAL ASIA 
                       CAUCASUS INSTITUTE

    Mr. Starr. Thank you very much, Mr. Chairman. I want to 
salute and add to your remarks and those of Mr. Meeks regarding 
engagement. Hat's off.
    Now, why? Because we are at a moment today in which the 
opportunities in this region and the prospects for the region 
are at a higher pitch than they've been in 25 years. This is a 
remarkable moment.
    There are a lot of causes for this. There are also factors 
holding it back, which I am sure we will hear about. However, 
among those causes, one that has earned particular attention, 
are the reform project going forward in Uzbekistan.
    My colleagues will speak on several aspects of it but I 
want to just take note that our Central Asia Caucuses Institute 
undertook a year ago a systematic review of all the reforms 
going on there, trying simply to catalog them and follow their 
status, and we have covered economics, foreign relations, law, 
governance, religion, and so forth, and which will be in a 
forthcoming book entitled, ``Uzbekistan's New Face.''
    Now, these--suffice it to say now that these are really 
fundamental reforms. We shouldn't expect all of them to be 
fully implemented. It won't happen. It doesn't ever happen. We 
can expect resistance to some.
    But this is as fundamental a reform program as taking place 
in any predominantly Muslim society on Earth today. It deserves 
our attention, deserves our support.
    Now, let me just touch on a couple of aspects of it. First, 
on the foreign relations, this is transformative. They, 
basically, moved from, as everyone in the region is moving, 
from a period of exclusive focus on preserving their own 
sovereignty individually to one in which they are talking about 
the sovereignty and integrity of a region, and this is really a 
very fundamental change.
    The United Nations General Assembly passed a resolution 
recognizing this just a month ago. The United States supported 
it as, by the way, did China and Russia. We will see if they 
follow through. But it's an important shift.
    In the area of governance, we are talking of very 
interesting developments with regard to empowering political 
parties and the Parliament itself to initiate legislation, not 
just to approve laws that are handing down from above--in the 
economics sphere, the convertibility of currency, the opening 
of contacts with the ability to invest abroad and receive 
investments from abroad. These and many other changes will 
bring about very basic shifts.
    Now, with regard to religion, this is a Muslim majority 
society. What I want to stress is--and we will hear more about 
this--I am not going to dwell on the 23,000 people who've been 
taken off prescribed lists in that area. My colleagues will get 
into those questions.
    I want, rather, to stress that this is a Muslim society 
with at the same time has a secular government and secular 
systems of laws and secular courts.
    This is common throughout the region and it's a prime 
factor that should be at the front of our foreign policy. It's 
a very imperfect system but it's something we should be working 
with them to develop and perfect. It's something in which we 
have a common interest and common concerns.
    Now, what should the U.S. do about all this? Let me simply 
say, first of all, I think we have to embrace the region as 
such. They really have shifted from, if you will, navel 
watching--each watching out for its own exclusive fate--to 
drawing--grasping hands on a regional basis.
    This is really important. We cannot appear to be engaged in 
divide and conquer policies, handing out rewards and 
punishments to good guys and bad guys. We have to think 
regionally. We have not been used to doing that.
    And the region itself has changed. When Kazakhstan proposed 
to Secretary of State Kerry to establish what became the C5+1 
consultative format, we responded as they proposed. If that 
were to be proposed today, all residents of the region would 
favor including Afghanistan not as a neighbor of Central Asia 
but as part of the region. So I would add that.
    Now, in addition to embracing the region and stressing the 
idea of these as secular states with secular systems of laws 
and courts and education in predominantly Muslim societies, 
secular in order to protect religious freedom, not unlike our 
own system--that we want to work with them, it seems to be, to 
perfect that.
    Then, finally, that we--there are problems aplenty and Mr. 
Meeks rightly touched on some of them. Of course there 
problems. The question that we have to decide--and I think it's 
fundamental--is are we going to work with them or on them.
    Working on them, naming and shaming, hasn't worked--won't 
work. Working with them does work. I could give very specific 
examples if you'd like on how it has worked. I think that's the 
way to go for the future.
    Thank you.
    [The prepared statement of Mr. Starr follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
                              ----------                              

    Mr. Rohrabacher. Thank you very much.
    Mr. Swerdlow.

  STATEMENT OF MR. STEVE SWERDLOW, RESEARCHER, CENTRAL ASIA, 
                       HUMAN RIGHTS WATCH

    Mr. Swerdlow. Chairman Rohrabacher, Ranking Member Meeks, 
it's an honor to be here today.
    My remarks focus on the remarkable changes that we are 
witnessing in Uzbekistan's human rights situation and also 
recommendations for how U.S. foreign policy can best promote 
lasting and meaningful improvements on the ground, and the key 
recommendation really is this--that in this time of, as has 
been noted, hope in Uzbekistan and political transition, it's 
really vitally important that United States continue to promote 
human rights--and the word engagement has been used here--but 
to engage in a principled fashion.
    I think one of the lessons for U.S. foreign policy of the 
last 2 years in Uzbekistan, the releases of political 
prisoners, the remarkable progress on combatting child labor 
and forced labor in the cotton fields, is that pressure 
actually works, even in hard authoritarian cases like 
Uzbekistan.
    So while some of the recommendations are that the U.S. 
continue to encourage positive change, expand educational 
exchanges like the Muskie program that's now no longer with us, 
it's also important not to lose sight of the fact that 
Uzbekistan remains deeply authoritarian with ongoing egregious 
human rights abuses such as torture and that it's important the 
U.S. not pull punches and keep speaking out and using public 
pressure where necessary.
    In these past 2 years, we have seen some remarkable things, 
as my colleague Dr. Starr just mentioned.
    We've seen about 30 political prisoners released. We've 
seen some restrictions being lifted on free speech and free 
expression.
    We have seen about 16,000 people coming off the notorious 
black list that the security services keep, which mean that a 
person has to go in for police interrogations on a regular 
basis.
    We've seen the president commit publicly at the U.N. to 
combat forced labor and child labor, and we have seen a 
rhetoric or a discourse of government officials being 
accountable to their citizens in Uzbekistan.
    So it's a time of remarkable optimism in Uzbekistan, the 
likes which I've never seen. But I think it's important, again, 
to dwell here on the political prisoners.
    Why are these 30 political prisoners--why are they the ones 
that have been released? They've been released because they 
were the specific individuals that the U.S. Government had been 
raising, along with the European Union and human rights groups, 
for many, many years.
    I think it shows, again, the value of pressure, the value 
of speaking out, and it's also important to note another thing 
about these releases, which are so significant, and one--just 
to put it in context--one of the individuals I met recently 
that was released is a man named Samandar Kukanov.
    He was the vice chairman of Uzbekistan's first independent 
Parliament. He was in jail for 24 years, which, next to Nelson 
Mandela I think makes him the longest imprisoned political 
activist in history.
    It's important to note that none of these people have been 
rehabilitated--that many of them have suffered torture and that 
is a discussion that's not really yet on the table in 
Uzbekistan.
    I think how Uzbekistan deals with political prisoners opens 
this national dialogue, you know, the last 25 years of Karimov 
and the abuses that occurred will actually determine a lot 
about the general direction of democratization and human 
rights.
    And it's also important to remember that there are still 
thousands of people imprisoned on politically motivated 
charges.
    I just met the wife of one of them, a professor of Turkish 
studies named Andrei Kubatin. I met his wife about 2 weeks ago. 
He was tortured for no other reason, in fact, than he had 
shared publicly available documents about--historical documents 
with a Turkish diplomat and he was tortured. So it's important 
to keep in mind that this is ongoing.
    On free speech, I talked to journalists in Uzbekistan and 
they tell me that now they're able to report about corruption, 
forced labor, and that is remarkable.
    But, as you said, Chairman Rohrabacher, Radio Free Europe 
is still not operational. The BBC, which was promised 
accreditation about a year ago, has still not been able to get 
their local correspondent accredited and that is something that 
could be changed, I think, very quickly if it was raised in the 
right way.
    On torture, we continue to see--continue to get information 
of really horrific torture. In one case, a journalist named 
Bobomurod Abdullayev, who was stripped naked in a freezing 
cell.
    I met with him not long ago as well, and these are things 
where the president has spoken out on the need to combat 
torture. But the follow up--the implementation is lacking.
    On freedom of religion I should mention that because we 
have a visit coming up by the U.S. ambassador for international 
religious freedom--Sam Brownback--which I think is expected in 
September.
    We have seen a desire expressed in Tashkent to promote a 
more enlightened view of Islam, to have Uzbekistan be 
associated not with torture but be associated with Islamic 
enlightenment, education. That, of course, is very important.
    But we still see the same restrictive regulations, 
especially on Christian communities, Jehovah's witnesses unable 
to register, Protestants unable to register, and Christians 
often being vulnerable to constant harassment, home raids and, 
of course, as I mentioned, thousands of independent Muslims 
still languishing in jail on politically motivated charges.
    That leads me to sort of the key recommendations which I 
mentioned in the beginning, which is that we have seen a 
significant number of political prisoners released--30 in 2 
years.
    Child labor has really been--that's been a very successful 
effort on the part of the government now that focusses on 
forced labor. We still saw 300,000 people forced to pick cotton 
in the last harvest, according to the International Labor 
Organization, not according to human rights groups' findings.
    And so it's important that Washington use the tools it 
has--use the International Religious Freedom reports, 
communicating that the country of particular concern 
designation is not going to be going anywhere as long as 
registration is so hard to acquire for Christian communities, 
as long as there are so many religious prisoners in jail.
    It needs to use the Trafficking in Persons report. We saw 
an upgrade from Tier 3 to Tier 2 watch list for Uzbekistan but 
it's still important to communicate that there should be an end 
to forced labor.
    And, of course, the U.S. shouldn't be afraid to use tools 
like Global Magnitsky for officials that have been responsible 
for a policy and practice of torture.
    And finally, I would say the U.S. is a leader on these 
issues and it is important for Uzbekistan--I think hard to 
imagine that Uzbekistan can really democratize and move forward 
unless there will be a sober and difficult conversation about 
the past--some conversation about the past 25 years and some 
process that allows Uzbek citizens a real voice to discuss what 
has occurred and strategies for moving forward.
    Thank you very much.
    [The prepared statement of Mr. Swerdlow follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
     
                ----------                              

    Mr. Rohrabacher. Thank you very much.

STATEMENT OF MS. SPASKA GATZINSKA, ASSOCIATE DIRECTOR, EURASIA, 
                NATIONAL ENDOWMENT FOR DEMOCRACY

    Ms. Gatzinska. Mr. Chairman, Ranking Member Meeks, and 
distinguished members of the subcommittee, thank you for 
holding this timely and important hearing on current 
developments in Central Asia.
    Mr. Rohrabacher. Could you please put the mic up a little 
bit closer?
    Ms. Gatzinska. Sure. Is this better? There we go.
    Mr. Rohrabacher. Yes. Thank you.
    Ms. Gatzinska. On behalf of the National Endowment for 
Democracy and our partners in the field, I would like to thank 
you for your ongoing support and commitment to Central Asia and 
we very much welcome your remarks on the importance of 
continued engagement.
    With congressional support, the Endowment has promoted the 
democratic development of the region since the early 1990s. 
Currently, NED supports over 50 domestic, civil society, and 
media organizations in their steadfast efforts to advance 
democracy in Central Asia.
    For the record, I would like to point out that the 
endowment is a grant-making organization and does not take 
positions on U.S. policy.
    Despite sharing a common Soviet heritage, these five 
countries all facing unique sets of challenges as they continue 
to reform their political systems and economic structures. I 
will focus my remarks primarily on Uzbekistan because of lack 
of time. But I think we all look forward to addressing 
questions about the other four countries in Central Asia.
    The single most important event, as has been pointed out, 
is the sudden death of Islam Karimov in September 2016, who had 
ruled Uzbekistan with an iron fist since before the dissolution 
of the Soviet Union.
    It is well known that President Karimov created a 
kleptocratic dictatorship where the chosen few held absolute 
political and economic power while relentlessly persecuting and 
silencing independent, civic, and political voices.
    Under Karimov's rule, independent civil society, media, and 
political opposition were all decimated and the ability of 
international organizations and donors to operate in the 
country was severely restricted.
    Given this context, it is not surprising that observers 
watched with trepidation the first 6 months of President 
Mirziyoyev's ascent to power.
    What has followed since then is a serious of official 
statements promising a broad range of much needed reforms. I 
want to repeat much of what my colleague at Human Rights Watch 
has already mentioned in terms of developments and positive and 
negative events that have occurred since then.
    Instead, I will go into more detail on the reform process 
that has been unfolding over the past 2 years.
    A cornerstone of the reform process is improving the rule 
of law as the new government understands it urgently needs to 
attract foreign investment in order to rescue its ailing 
economy.
    Although no comprehensive reform map has been issued, it is 
clear that the government's priorities are fighting corruption, 
liberalizing the economy, and promoting the rule of law.
    Uzbekistan has already secured Russian investments and 
trade agreements, which only have reinforced Russia's 
extraordinarily influential, political, and economic role in 
the region.
    Similarly, China's impact has grown over the years and it 
is currently Uzbekistan's largest trading partner. Uzbekistan 
has already opened its borders with neighboring countries, 
rekindled trade agreements, and is showing signs of asserting 
itself as a leading regional power.
    While still working to improve its longstanding 
relationships with China, Russia, and its neighbors, President 
Mirziyoyev has taken deliberate steps to reach out to the U.S. 
and to the West.
    The May 2018 visit to Washington was the culmination of 
President Mirziyoyev's overtures to the U.S. In addition to 
promising continued economic reforms, Uzbekistan has requested 
technical assistance from the U.S. for implementing rule of law 
reforms, which could result in opening markets to more U.S. 
businesses and technologies.
    The Center for International Private Enterprise, for 
example, has started a program to support the development of 
nascent businesses associations and to foster their ability to 
advocate on economic and policy issues.
    These developments offer a unique opportunity. Although 
undeniable progress has already been made, it is best 
characterized as an ad hoc approach to individual opportunities 
rather than a well thought out reform agenda.
    A much more systematic approach is needed and there are 
many ways in which independent domestic civil society can 
contribute meaningfully and constructively to the reform agenda 
such as providing expert policy recommendations and holding the 
government accountable to its promises and to international 
norms and standards.
    In order for that to happen, the government of Uzbekistan 
could take specific steps that would significantly improve the 
operating environments for civil society and media.
    Items on the agenda of domestic partners include easing 
cumbersome administrative procedures for NGOs, removing 
restrictions on freedom of movement and association, providing 
accreditation to independent, domestic, and international 
media, allowing international donors and organizations to 
return to their country and to operate freely, and finally, 
removing the outdated exit visa model which has already been 
suggested by President Mirziyoyev.
    These tests will be a welcome sign to domestic and 
international audiences to Uzbekistan is truly dedicated to 
working toward the success of the reform process.
    Thank you again for this opportunity and I look forward to 
your questions.
    [The prepared statement of Ms. Gatzinska follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
     
                     ----------                              

    Mr. Rohrabacher. Thank you all very much for joining us 
today and trying to give us some direction on what type of 
policies will achieve the positive goals that we all have.
    But can I--I would like to ask the panel how many political 
prisoners are there in this region and what countries are they 
in?
    Mr. Swerdlow. Well, Uzbekistan leads the pack and, in fact, 
in all the former Soviet space, Uzbekistan has more political 
prisoners than all former states--for former Soviet states 
combined and the estimates are really hard to--it's hard to be 
exact because the country was closed for so long.
    But I think on the more conservative side we are talking 
about thousands of people. We are talking about perhaps 70,000.
    Mr. Rohrabacher. Uzbekistan----
    Mr. Swerdlow. Uzbekistan.
    Mr. Rohrabacher. There are--in Uzbekistan there are 
thousands of political prisoners now.
    Mr. Swerdlow. Right. And to be precise, what I mean by that 
are mostly--the vast majority of these are individuals that 
have been convicted on the extremism charges, which are vague, 
over broad, extremely broad charges that have been used against 
mainly independent Muslims in Uzbekistan.
    So we term those political because those statutes are often 
used for political purposes.
    Mr. Rohrabacher. What about in the other countries in the 
region?
    Mr. Swerdlow. In Kyrgyzstan the one very notable political 
prisoner now is Azimjan Askarov, the human rights defender--
ethnic Uzbek human rights defender who's been in prison now 
since the June 2010 Osh events.
    Mr. Rohrabacher. Could you repeat that? How many people? 
Where did you say?
    Mr. Swerdlow. I am referring to Kyrgyzstan and we don't 
compare figures that often, but Kyrgyzstan the notable case of 
Azimjan Askarov is really high on the agenda of Human Rights 
Watch.
    In Tajikistan, there we've seen a rapid increase in arrests 
over the past, I would say, 4 years and we estimate something 
between 150 to 200 political activists mainly from the now 
banned opposition party.
    Mr. Rohrabacher. Okay. So there are 200 or 250 people you'd 
consider political prisoners and that is in Tajikistan?
    Mr. Swerdlow. That's Tajikistan. That includes a few--one 
journalist just last week convicted on a 12-year charge, about 
three lawyers, and the rest political activists, and then----
    Mr. Rohrabacher. So thousands in Uzbekistan and 60 in 
Tajikistan. What about the rest?
    Mr. Swerdlow. Well, about 200 in Tajikistan.
    Mr. Rohrabacher. Kazakhstan is----
    Mr. Swerdlow. Maybe you want to speak to----
    Ms. Gatzinska. I would like to add that we don't often hear 
about Turkmenistan, which has been very closed off and the 
number of disappeared political prisoners is very large.
    There is a project that is run by a consortium of 
organizations called Prove They're Alive, which is trying to 
force the government of Turkmenistan to acknowledge how many 
political prisoners there are, how many of them are still 
alive, and so forth.
    In Kazakhstan, I would say that it is difficult to put a 
number to the number of political prisoners for two reasons. 
One, there's no agreement on what constitutes a political 
prisoner. There's a lot of trade union activists who have been 
imprisoned because of their trade union activities.
    There is also a journalist in media who have been 
imprisoned for their freedom of speech activities. But in terms 
of political prisoners, I would highlight the fate of the now-
banned political movement Alga, which was heavily financed and 
related to Ablyazov and among those there's upwards of 200 
political activists who remain in prison over the past 3 years.
    Mr. Rohrabacher. So we are talking about people being held 
now that are in the hundreds?
    Ms. Gatzinska. Yes, and----
    Mr. Rohrabacher. Okay. What about Kyrgyzstan?
    Ms. Gatzinska. So for Kyrgyzstan, there has been an 
increase in high profile political prisoners. I would mention 
too one is Omurbek Tekebaev who used to be one of the leaders 
of Ata-Meken, one of the most prominent political pro-
democratic parties in Kyrgyzstan.
    He was sentenced on corruption charges right before the 
presidential election last year, and this was largely seen as a 
political move to prevent him to run for president.
    There have been other cases where political opposition 
figures who came afoul of the former president----
    Mr. Rohrabacher. Do you have a number for me?
    Ms. Gatzinska. I would imagine probably less than 20.
    Mr. Rohrabacher. Less than 20?
    Ms. Gatzinska. Yes.
    Mr. Rohrabacher. Okay. I am just trying to get a sense 
about it.
    Dr. Starr.
    Mr. Starr. Well, first of all, these are impressive 
figures. I wish there was some way of checking them rigorously. 
There really isn't, which is assumed to be the case, and I 
mean, there isn't a means of checking them because of the 
closed nature of these data.
    But let us--let us, for a moment, take these figures at 
face value. They seem to me decisively to disprove Mr. 
Swerdlow's assertion that pressure actually works.
    I agree with him that pressure can work and at times does 
work. But we've used it as our sole tool and the large numbers 
that have just been cited are proof to me that we should have 
another tool and that other tool is working with rather than on 
these people.
    And let me give as an example an organization that might 
have been mentioned earlier under civil society groups and that 
is an organization called Regional Forum that was set up by a 
Slovenian--remarkable Slovenian woman named Mjusa Sever.
    She has been working in Uzbekistan for 10 years with some 
American support and European support. She has worked with 
rather than on the ministry of justice with the ministry of 
internal affairs.
    She has brought members of their supreme court here to sit 
down with American lawyers for weeks on end and discuss exactly 
the problems that my colleagues have raised.
    These are important issues, it seems to me. She--through 
her decade-long work, she actually participated in the drafting 
of many of the laws which are now being implemented and offer 
some signs of hope for the future.
    So my strong urging here is that we shift the balance from 
yes, pressure should continue, but from pressure to working 
with rather than on these people. That will produce results and 
numbers that are more credible than what we've had.
    Mr. Swerdlow. Can I just add to that, very quickly, and say 
that I think the case of Human Rights Watch right now in 
Uzbekistan is--supports what you say in the sense that now 
there's actually a period politically where we can sit across 
the table from the Uzbek government, many Uzbek officials from 
a number of ministries, and it's understood that we have a 
critical independent role to play and that there's nothing--
criticism doesn't have to be toxic.
    I actually--I see a dialogue now between our organization--
you know, I was actually deported from Uzbekistan 7 years ago 
or 8 years ago, like many people from the NGO community and the 
journalistic community, and now I've been able to have these 
really difficult conversations and we talk about yes, we 
understand that this is a painful conversation to talk about 
this number of political prisoners--let me explain why we call 
them political prisoners--let us talk about all these issues, 
and that conversation is taking place.
    I would say I agree with you that you do have to work with, 
not on. But I think, again, I don't think those approaches are 
mutually exclusive and I think shining light on these issues is 
really important.
    And finally, I will say that we asked the Uzbek government 
recently, very recently, to give us a list of all the prisoners 
under--imprisoned under these charges and we are still waiting 
for that data.
    Mr. Rohrabacher. Do we have an American ambassador in each 
of these countries or is--are there vacancies?
    Ms. Gatzinska. There's currently a vacancy in Tajikistan 
and there is a vacancy in Kyrgyzstan that, if I am not 
mistaken, is considered to be filled.
    We have a very strong and excellent ambassador in 
Uzbekistan, Ambassador Spratlen.
    Mr. Rohrabacher. You have him--is he an ambassador now?
    Ms. Gatzinska. She's about to be.
    Mr. Rohrabacher. Right now--so right now there is a vacancy 
in Tajikistan. Are there other vacancies?
    Ms. Gatzinska. In Kyrgyzstan as well.
    Mr. Rohrabacher. Kyrgyzstan. Okay.
    Ms. Gatzinska. Yes.
    Mr. Rohrabacher. And what are the other countries we have 
American ambassadors present?
    Mr. Starr. The problem goes beyond representation. Do they 
meet as a group--do they consider their mission a regional one 
or rather----
    Mr. Rohrabacher. I understand. I am just trying to get an 
understanding right now some of the----
    Mr. Starr. I think we have them everywhere now.
    Mr. Rohrabacher. Okay. Are there vacancies in all of these 
countries? No.
    Mr. Starr. No. I think there are none today.
    Ms. Gatzinska. No. So Dan Rosenblum has been nominated as 
ambassador to Uzbekistan.
    Mr. Rohrabacher. Uzbekistan.
    Mr. Swerdlow. You have to be confirmed.
    Ms. Gatzinska. Yes. Yes. You have to be confirmed.
    Mr. Rohrabacher. We do not--okay. Okay. So in these five 
countries we are talking about here, where is the--is there an 
active ambassador in one of them? Where?
    Mr. Swerdlow. Well, as I understand it, Ambassador Spratlen 
is still in her position and still active, and----
    Mr. Rohrabacher. Is there someone now who's been appointed 
by this administration who is now currently there as an 
ambassador, right?
    Mr. Swerdlow. Yes.
    Mr. Rohrabacher. And one--and then the other countries of 
the region, what--which country is it who has the ambassador? 
Is that--who are we talking about.
    Mr. Swerdlow. Uzbekistan and Kazakhstan. Ambassador Krol is 
there. Oh, he's leaving. So there's a number of people getting 
ready to leave but they're still in their positions.
    Mr. Rohrabacher. Yes. I am just trying to find out--you 
know, I went to Belarus. I remember I went there a couple years 
ago and I was very surprised when we landed and there was no 
ambassador in Belarus, and I asked why there wasn't an 
ambassador in Belarus.
    I mean, the embassy had a small staff and they came to see 
us at the airplane and he--it was described well, we had the 
political prisoners--we are protesting the political prisoners 
and thus we don't have our--have an ambassador and later on 
when we talked about political prisoners I said, okay, I want 
to get a briefing on who these political prisoners are.
    And, apparently, there were six of them and yes, there was 
a couple--one guy who had been arrested who was--had run for 
president against the current leader and he got arrested 
immediately after the election and he was certainly a political 
prisoner but two of them were in the young anarchist movement 
and they had been arrested for throwing a Molotov cocktail at 
some embassy.
    And it didn't seem to me to be--justify not having an 
ambassador because there were two political prisoners in the 
country, and Uzbekistan, if they have thousands of political 
prisoners, here's the follow-up question: Should we then have a 
U.S. ambassador in Uzbekistan if they have thousands of 
political prisoners?
    Mr. Swerdlow. Absolutely. I mean, I think, as we've been 
discussing, we all agree on engagement. I think the point I am 
trying to make is principal engagement, shining light.
    The more information we have--I think it actually even 
benefits the Uzbek side and, again, I want to stress, as I 
mentioned in my remarks, there have been--there has been a new 
discourse about religion, as Dr. Starr said, about changing the 
approach.
    But the problem is that these habits dies hard and the 
government has certainly legitimate security concerns. We 
recognize that.
    But thousands of people, I think, mostly in the late '90s, 
beginning with--after the passage of the 1997 law on religion, 
which was really one of the most restrictive in the world, you 
had thousands of people landing in prison following trials 
without due process.
    Mr. Rohrabacher. I am going to--I've got to let my 
colleagues have some time here, too. But there will be a second 
round, and Mr. Meeks, Dr. Starr really has something he wants 
to say. Go right ahead. Then Mr. Meeks can take over.
    Mr. Starr. Yes. This is--this is a vexing problem on 
representation. But just having people there isn't enough.
    Twenty-five years ago, these were all former Soviet states 
so they entirely still spoke Russian. Russian is not the 
national language of any of the countries we are talking about. 
It is an official language for intercultural communication 
within Kazakhstan along with Kazakh.
    We have had ambassadors in this region who actually made a 
serious effort to learn local languages. But not--but to have 
someone in these countries who doesn't know the local language 
and is not making a good faith effort to learn it is basically 
to say as clearly as a big power can to a small power that we 
really don't take you seriously. That doesn't lead to the kind 
of dialogue you're talking about.
    Mr. Rohrabacher. All right.
    Mr. Meeks.
    Mr. Meeks. Thank you.
    And speaking of Russia, Russia has maintained strong 
security ties to the region by leading the Collective Security 
Treaty Organization security bloc and by deploying missile 
defense systems within the region.
    Now, Uzbekistan is not a member of the treaty but in 2017 
it conducted military exercises with Russia within its 
territory.
    Following Russia's actions in Crimea, Kazakhstan, from--you 
know, in talking to some of them, has become increasingly 
concerned about its northern neighbor, particularly since about 
what we just talked about--23 percent of its citizens are 
ethnic Russians.
    So my question is do you think Russia will try to stir up 
ethno-nationalist sentiments in Central Asia, given the region 
has a sizeable ethnic Russian population? Because that's 
something that was happening in Ukraine and Eastern Ukraine.
    And when I've talked to some Kazakhstanians it's what 
they're telling me their concern is.
    Dr. Starr.
    Mr. Starr. Russia, which is a great and noble European 
civilization that's made great contributions to our common 
culture, is suffering from what might be called a hangover.
    It is an imperial hangover. It's what France went through 
after World War II. The North Africans were actually citizens 
of France.
    Then they decided that they wanted to be independent and 
the 4,000-some Frenchmen died in the ensuing battles and, 
finally, Charles de Gaulle came along and said, enough. He 
said, let's--there's a better France without these colonial 
territories.
    Putin is exactly an anti-de Gaulle. He said, no, we are--we 
are not us until we have our space recreated. And so it's a 
problem. It will remain so for a while. Not permanently, 
because the generation that thought that way will eventually 
pass on.
    It is a problem for Central Asians. Their combined response 
is very clever. They've said, look, we want good relations with 
Russia. It's close by. We must have good relations there. We 
don't want them bothering us. We will use China to balance 
Russia.
    Then, a few years later around 2001, they said, well, you 
know, these are two great neighbors of ours--let's use the 
United States and Europe to balance China and Russia.
    And now, because for the last years before--until very 
recently we basically--were basically saying what we were not 
doing in Central Asia, they basically couldn't do the balance. 
We were not playing the role they assigned in this balance, 
which is, it seems to me, good for everyone.
    So this is--this is the challenge. It is absence of serious 
discussion of security, which both of you mentioned in your 
presentations. It's the absence of that, as we discuss these 
other issues, that has led to this situation and opened the 
door for misbehavior from the north.
    Mr. Meeks. Most of you basically agree with that? Anything 
to add?
    Ms. Gatzinska. What I would like to add is that at least 
from what we've seen from our partners on the ground there's a 
very pragmatic approach toward Russia. There's an understanding 
that Russia's influence in Central Asia is strong and it's not 
going to decrease.
    So in a way, Russia doesn't necessarily need to stir up 
ethnic concerns because their extraordinary influence in the 
region is not threatened.
    Kazakhstan is a little bit different and we have heard the 
same things that you mentioned, Congressman Meeks, where they 
are concerned particularly about the northern regions. But 
those may be a little bit overplayed, from what we hear on our 
partners on the ground.
    Mr. Swerdlow. I might just add that I think in some ways 
the human rights crisis in Russia, which is probably the worst 
it's been, you know, since the early '90s, mimics and repeats 
some of the worst human rights practices that were pioneered in 
Central Asia in terms of the restrictions on the internet, a 
really restrictive approach to freedom of religion, and a lot 
of other issues that seemed to really--you know, the revenge of 
the past, in a way, with Putin coming back to the presidency in 
2012.
    I would say an interesting observation about Uzbekistan, 
though, is I think if, you know, Islam Karimov bequeathed a 
sort of healthy skepticism toward Russian domination I think 
that's one of the legacies of his foreign policy was to sort of 
try to ensure Uzbekistan maybe having more of a maverick and 
independent stance than, let's say, Kyrgyzstan, which is much 
more pro-Russian and I think--so I don't worry as much that 
despite the sort of oversized footprint in the media landscape 
that Russia occupies in a place like Uzbekistan I don't see 
Uzbekistan necessarily being--I think it maintains its own 
course and will continue to do so and that's one of the lasting 
imprints, in a way, I think, of Karimov's governance.
    Mr. Meeks. So let me just add on that. With the sanctions 
that we currently have on Russia, is that affecting the Central 
Asian countries? Is there any spillover to the Central Asian 
economies?
    Mr. Swerdlow. It affects the economy in the sense that you 
had hundreds of thousands of Central Asian migrants, mostly in 
the construction sector in Russia, that had to leave and many 
of them returned, for example, to Tajikistan without places to 
work and that's caused a lot of panic at times--that you could 
have a lot of unrest in Central Asia--and you also have the 
cooperation ongoing between the Russian FSB and the security 
services of all the Central Asian governments. We've seen 
extraditions, kidnappings, abductions of Tajik dissidents in 
Russia.
    So that continues to go on and it's a very intractable 
problem.
    Ms. Gatzinska. And if I can just add quickly a little bit 
about that is that the sanctions are impacting the Central Asia 
in a way that, as part of the Eurasian economic union, Russia 
has not been able to deliver on a lot of the promises that were 
made when, for example, Kyrgyzstan joined the union and a lot 
of the investments that were expected were not--they have not 
materialized as time went through, which has led to some 
disillusionment with the Eurasian economic union.
    Mr. Meeks. My last question, and then I want to turn it 
over is, you know, I think economies have to diversify, and I 
know in talking to some they have been talking about they want 
to diversify their economies. Do you think they are serious 
about diversifying their economies and if so, do you think that 
that will then have some sort of political impact on the 
regimes?
    Mr. Starr. Yes and yes. [Laughter.]
    I am a trustee of Nazarbayev University. It is working like 
mad and pouring huge amounts of money to train people in fields 
needed to diversify the economy and the Uzbeks are doing the 
same thing. Everyone is now. They realize that the old energy 
economy isn't forever.
    But if I can just add a note with regard to Russia because 
it came up on the economics side. Russia--the easiest way for 
them to misbehave in Central Asia is the old divide and conquer 
formula--play one against the other.
    The Central Asians are, I believe, naturally very tactful 
people. Maybe it's because they've been--they've had to be for 
so many millennia with so many neighbors in every direction.
    But as such tactful people, they are promoting their 
regional cooperation--the regional organization that they're 
seeking to make.
    The regular meetings of presidents with Afghanistan--
they're promoting that not just as a solution to their 
diversification and development in many ways but also as a way 
to balance outside pressures.
    They say to the Russians, look, you're concerned--you claim 
to be concerned about security, about drugs, extremism. Let us 
handle these things. We can provide our own security. Stay out. 
Let us do our job.
    This is what they've been proposing and we should be 
strongly backing that. It's not against anyone. It's not 
against Russia. It's not against China. It's not against 
America or Europe.
    The only--everyone benefits if this region is stabilized, 
diversified, from within rather than through pressures from 
without.
    Ms. Gatzinska. If I can just--I don't--I agree with that. 
But I would add that economic diversification can only succeed 
if it's coupled with rule of law reforms, transparency, and 
accountability in order to fully feel the positive impact of 
economic diversification.
    Mr. Meeks. Thank you.
    Mr. Swerdlow. Just to add one final point on the economy, I 
think it's interesting to see that the World Bank and the 
European Bank for Reconstruction and Development are really 
active in Uzbekistan.
    And so Human Rights Watch is calling on them to condition 
their investments and their loans on concrete demonstrable 
human rights progress and, as Spaska has said, on transparency, 
anti-corruption efforts, and then I think another piece of this 
is educational exchanges.
    As we said in the beginning, a lot of Uzbeks are talking 
about returning even from the U.S. to build the country and I 
think if the U.S. can invest more in educational exchanges for 
Uzbeks students and for all Central Asian students that can 
only be a really powerful and good thing for the region.
    Mr. Rohrabacher. Thank you very much, and we now have 
Congresswoman Kelly. Would you like to come down here and take 
over for Mr. Meeks?
    Mr. Meeks, she's taking over for you now. Remember that.
    Ms. Kelly. For 5 minutes. [Laughter.]
    Thank you, Mr. Chair, and welcome to the witnesses.
    From listening to the three of you, it sounds like you feel 
the region is moving in the right direction and becoming more 
open, especially following the 2016 change of rule in 
Uzbekistan, and since then, the president has taken reforms to 
improve the rule of law and release political prisoners, even 
though, in listening to you, there's many, many, many, many 
more to be released.
    Ms.--am I saying your name right--Gatzinska?
    Ms. Gatzinska. Perfect.
    Ms. Kelly. All right.
    You said in your written testimony that Uzbekistan reforms 
have been more ad hoc as opposed to a part of a larger reform 
agenda, and in speaking with us you mentioned a host of areas 
that should be tackled as part of the reform agenda.
    What would you suggest be first and would produce the most 
progress?
    Ms. Gatzinska. If I can make two suggestions rather than 
one.
    Ms. Kelly. Sure. Two is fine.
    Ms. Gatzinska. One is what the Uzbek government has already 
requested is technical assistance from the U.S. and from 
others. They're not necessarily looking for funding but they 
realize that they lack the professional knowledge, the 
technical knowledge, to make the reforms that they need to do.
    Whether it's within creating a working legislature or 
whether it's structuring their economic ministry or other 
government agencies, they really are hungry for that knowledge.
    So more exchanges, more expertise, more experts going to 
Uzbekistan or bringing them here would be a huge benefit as 
they reform their legislative acts or administrative procedures 
or restructure their various government agencies. So I think 
that, since they're eagerly awaiting it, would be a huge 
benefit for them.
    The other--the other side of that is I think civil 
society--an active vibrant independent civil society who can 
provide policy recommendations and who can hold the government 
accountable as they reform the process, as they fight 
corruption, would be incredibly beneficial and it does not have 
to be necessarily an adversarial relationship.
    It can be the two of them working together toward the same 
goal--a more open diversified economically and a more--I 
hesitate to say more democratic but certainly more open 
Uzbekistan and I think lifting the restrictions on civil 
society and allowing them to more freely operate is absolutely 
crucial.
    Ms. Kelly. And beside the technical assistance that you 
talked about how can the U.S. assist more in what you want to 
do or what you want to see done?
    Ms. Gatzinska. I think--give me 1 second to look at my 
notes--I would throw in two things. One is, overall, removing 
the exit visa model that Uzbekistan still remains. They've made 
statements that they're looking into it. It will take some 
time.
    Allowing international donors and organizations to return 
to their country is incredibly important, and what we've heard 
from various sources is that the administrative and legislative 
acts do not exist for international organizations who are 
forced out to return.
    So that's something that needs to be done. So that's 
something that we can absolutely engage with them on.
    Ms. Kelly. Thanks.
    And Dr. Starr, you advocated for the U.S. to promote 
security by strengthening their internal capacities and their 
capabilities as a group rather than by subordinating either of 
them to some externally imposed order.
    How do you envision this being done and how can the U.S. 
improve the conditions of all nations and provoke any 
insecurities?
    Mr. Starr. Well, as you approach this question, the first 
step would be to review very carefully what was done under 
NATO's Partnership for Peace program, which flourished in 
Central Asia for many years.
    Even to this day, NATO is bringing officers from these 
countries to its campus in Germany for very valuable sessions 
of various sorts.
    I would review that first. But the answer to your question 
is to ask rather than tell, and I think if we were to sit down 
and begin the dialogue that we've never really had on 
security--we haven't for 15 years--we need it. We need it 
urgently, and have--and it should be very candid and nothing 
should be off the table.
    Then, having had that dialogue on security, we could then 
ask how do we integrate our security interests with our 
interests in economic development or our interest in education, 
our interest in rights and democratization.
    I think that's the only way we'll end up with a strategy 
and when we wrote this book, ``The Long Game,'' it is a long 
game. We need to sit down and think this through from scratch.
    It's time to do it and, as both of our Members of Congress 
who addressed us at the beginning said, it is--this is the 
right time to do it, through a new form of engagement, not just 
adding more of this or adding more of that.
    Ms. Kelly. Did you want to--did you want to say anything, 
add a comment?
    Mr. Swerdlow. Sure. Well, just on this overall question of 
what can be done, I mean, I think--I agree it's a long game. I 
agree that the approach has to be noncondescending, of course.
    But at the same time, many of these concerns are 
longstanding, obvious, they're out there, and it's clear to me 
that the Uzbek government has been listening these past, let's 
say, 13 years since the Andijan Massacre when you had hundreds 
of peaceful civilians--largely, peaceful civilians--that were 
killed in a massacre. After that, the government sort of shut 
down.
    But what's interesting is these past 13 years the 
government heard these longstanding demands and so reinstating 
the rights of journalists to report, that's, in a way, low-
hanging fruit that can be done quickly and it's--and I think it 
just takes some more prodding--a combination of private and 
public diplomacy.
    I did want to mention also the legal profession. In order 
for this to work, we are going to need to see a bar association 
that is genuinely independent and we have a visit coming up 
from the special rapporteur of the U.N. for the independence of 
the judiciary coming in the fall.
    So one of those concrete things that can happen would be 
that the bar association be allowed to become genuinely 
independent of the government.
    So there are a number of these things that actually I don't 
think they're that difficult and they can happen. It just 
requires, I think, sustained pressure and also ongoing--these 
forums that allow for this discussion to take place like the 
annual bilateral consultations and the C5+1.
    Ms. Kelly. Thank you
    Mr. Starr. Can I come back to the sustained pressure issue? 
I don't disagree with that. There's a value to it.
    On the other hand, I want to stress that the remarkable 
development in Uzbekistan of a defendant's bar--you know, 
lawyers who are qualified and up to world--Western standards on 
defending the accused, this is moving forward very quickly.
    When was this all developed? It was developed during the 10 
years that we spent a lot of effort just berating them for 
their flaws.
    But during--quietly, working under the radar, this Mjusa 
Sever who I referred to from Slovenia with some American money 
and European money managed to get the members of the supreme 
court of Uzbekistan here and to sit down for weeks on end for 
serious discussions of exactly the sort we are talking.
    We could do this. We are beyond the need to berate them. We 
have to come up with concrete, okay, what do we do about it.
    Now, again, we've talked a lot about Uzbekistan. However, 
we--henceforth, we have to think of all these issues that you 
rightly are raising in a regional context and we should hold 
out this if we are willing to do something in one country let's 
hold it out for the others as well and if we are not we should 
say so and say we are not really on board with your new 
regionalism.
    Ms. Kelly. Thank you.
    Mr. Rohrabacher. Thank you very much, and Ms. Kelly, I am 
going to have--we are going to have a second round, which means 
I will be able to ask some more questions and if you would like 
a second round you will be able to ask more questions as well.
    How many--when we talk about the political prisoners that 
are in these countries like Uzbekistan, how many of them are 
Christians who have been in some way prevented from trying to 
express their Christianity?
    Mr. Swerdlow. Well, talking about Uzbekistan, in the case 
of Christians usually these are short-term what are called 
administrative detentions, sometimes for 15 days.
    For the most part, organizations like Forum 18 that look at 
religious freedom in the region have not catalogued long-term.
    There have been, in the past several--in the past, let's 
say, 10 years there have been cases of 1-year, 2-year 
imprisonment terms for Baptists, Protestants.
    But at the moment, at present, I am talking about there are 
only short-term administrative detentions. The vast majority of 
abuses that we see----
    Mr. Rohrabacher. Well, so the actual----
    Mr. Swerdlow [continuing]. Towards those communities are 
arrests, home raids, confiscation of Bibles, and, you know, 
inability to register.
    Mr. Rohrabacher. This is--this is a Muslim population 
country but we actually have relatively light, let's put it, 
persecution--I wouldn't say that--that there's been--there's no 
overall repression of Christianity, even in these Muslim-
dominated countries. Sounds like----
    Mr. Swerdlow. There's a total ban on proselytism--absolute, 
complete, and total ban. So if were to join hands at this table 
right now we would be arrested for engaging in malicious 
activity.
    Mr. Rohrabacher. And is that true for the Muslim population 
of those countries as well?
    Mr. Swerdlow. It's also strictly regulated. All forms of 
worship, yes.
    Mr. Rohrabacher. Okay. And which leads us to radical Islam. 
Having visited Uzbekistan, I can--and having driven between 
Mazar-i-Sharif and Tashkent, I know that territory and it is 
definitely within the range of Afghanistan, which is, of 
course, as we know, for the last three decades, been absolutely 
in the middle of a bloodbath and of repression and of radical 
Islam.
    So when you look at that and you understand that right 
across the river is being controlled by the Taliban at 
different times and what we've just heard is that many of the 
prisoners that we are talking about are Islamic prisoners and 
not Christian prisoners, doesn't that indicate that perhaps 
that these--their government is trying to keep from what was 
happening in Afghanistan from happening in Uzbekistan and isn't 
that a good thing?
    Mr. Swerdlow. I would say this. Human Rights Watch 
completely recognizes that there are very legitimate security 
concerns and one of the things that we've been recommending in 
terms of dealing with this issue of thousands of people in 
prison is that there should be a commission, a body, a 
mechanism--some body that looks at case by case all of these 
cases and where there are--where there's credible evidence of a 
connection to violence in the case of an individual, certainly, 
they shouldn't be released and they should be tried in a 
credible way.
    But what is often the case--and I keep uncovering these 
cases--I mean, for example, Aramais Avakian, a fisherman from 
Jizzakh, who's actually a Christian and an Armenian, was 
convicted on charge 159, the extremism statute, as an Islamic 
jihadist.
    But he's actually Christian and he's Armenian, and we was 
sentenced for no other reason than the fact that he was an 
entrepreneur and there was some local competition in his area 
of Uzbekistan. So we see the misuse and abuse of these charges.
    Mr. Rohrabacher. Okay. Okay. Let's get to this then because 
you can anecdotally--you can talk about anecdotal information.
    The Saudis have pumped billions--billions of dollars in the 
last 30 years into promoting a Wahhabi concept of their faith, 
which is a type of Islam that will result in governments like 
the Taliban and social institutions controlled like the 
Taliban.
    And when I have travelled through those areas and different 
places, you see these mosques that are built by the Saudis.
    Doesn't that seem to suggest that the Saudis during this 
time period have targeted countries like Uzbekistan for a 
radical--for radicalization of their faith?
    Mr. Starr. There's absolutely no question about that. It's 
not just the Saudis. It's some Kuwaitis. It's many others, and 
this has been a very seriously pursued campaign with lots of 
money, which is channelled through private foundations of very 
wealthy people in the Gulf. They get the money out there to 
Central Asia and the rest follows.
    Now, I think the beginning of your question is--we should 
return to it, and that is, look, these are neighbors of 
Afghanistan and they know Afghanistan in many cases better than 
we do.
    You can speak Uzbek in Mazar-i-Sharif. You can speak Tajik 
all over the place because it's the same national language--
government language--and so forth.
    The fact is the Central Asians themselves have asked--have 
invited Afghanistan to join Central Asia. They want to invest 
in Afghanistan. They are actually doing it. They want to play a 
role in the pacification of Afghanistan. We should be welcoming 
this.
    Mr. Rohrabacher. Well, let me put it this way. I don't 
believe that they--people of that area, at least the ones I've 
talked to, and I don't think it's rational that, unless you are 
yourself, someone who believes in this radical form of Islam 
that wants to relegate women to having to wear burqas and have 
the type of brutality against people to enforce their faith, 
which is part of that radical part of Islam, I don't think the 
people--people don't want that, and you want to invite 
Afghanistan into your midst, you're going to have to be facing 
that type of radical Islam.
    Mr. Starr. From abroad, largely. Let me stress something 
that hasn't been mentioned here and that is everyone in Central 
Asia overwhelmingly they belong to the--adhere to the--of the 
four legal schools in Islam, the Hanafi, who are the most 
nearly open to reason, most nearly open to business, to trade, 
to normal activity of the four schools.
    They are not generically Muslim in the sense that the--that 
the Saudis are or, for that matter, the Pakistanis.
    The Afghans are part of this. Now, within that, there is 
another current going back 1,000 years that's associated with a 
guy from Samarkand.
    When you eventually visit there, you can visit his tomb, 
and that is Maturidi, who, again, was the great champion of 
reason as opposed to just blind faith or dogma to conduct human 
affairs.
    So they really come from a different corner than the Gulf 
and this actually holds great prospects, especially because 
they are increasingly, as the Uzbeks have done expertly, 
embracing this and saying, look, we favor moderate and 
enlightened Islam, not this other stuff.
    Mr. Rohrabacher. Well, let's--let me put it this way. When 
you have--you're right, it's not just the Saudis--but you have 
had this major investment of billions of dollars in madrassas 
schools, for example, where they're teaching kids how that 
they're--how not to read and write and do arithmetic but how to 
read the--their Koran and that's about it.
    And people coming out of the madrassas schools has served--
frankly, served the cause of a radical revolutionary repressive 
form of Islam and that has been financed.
    And when I remember when I went to Uzbekistan that that was 
one of the things that was pointed out to me is that they have 
had to stop that type of Islam from moving forward, which it 
sounds to me, considering many of the people you're talking 
about who are political prisoners are not Christians but 
instead are Muslims.
    So it would indicate to me perhaps this isn't just a sign 
of a repressive government but perhaps it's the sign of people 
who are fighting against an incursion of the worst kind of 
anti-freedom Islam that is--that was--is, clearly, available, 
to see in Afghanistan.
    Mr. Starr. There's a very interesting reality. We devised, 
in the West, a hypothesis 20 years ago that the reason 
extremism arose in Central Asia was because of repressive 
governments.
    There's no doubt there were repressive governments and that 
under them were some of the people you're talking about. But 
then it turned out that Kyrgyzstan, which had by far the most 
open and permissive laws on religion and practice and faith and 
so on and the large Christian population--by the way, under--
heavily influenced by Korean Protestants--that Kyrgyzstan, with 
its very mild back then laws, was in fact a hotbed of extremism 
and it turns out that Kazakhstan, which also had very tolerant 
laws, was being--was facing exactly the people you're talking 
about brought in from the Gulf.
    So yes, this is a serious problem and until we address it, 
ultimately, these people will be in its thrall.
    Mr. Rohrabacher. Well, I would hope that we do not, which 
is unfortunate, many times when people are trying to come to 
grips with an authoritarian government that is involved with 
some type of repressive system, look, we have to make sure that 
we are not acting in a way which will result in a totalitarian 
type of government, which is 10 times more repressive.
    I remember when--right now, I see General--this is another 
area--but General Sisi of Egypt under attack. Well, fine. When 
the Muslim Brotherhood takes over, what kind of government will 
Egypt have? That's a whole other area.
    But when you compare that to Uzbekistan, it seems to me 
that perhaps that effort coming out of Afghanistan and the 
money coming out of radical Islamic countries like Saudi 
Arabia--and by the way, we should celebrate the fact that the 
new--the changes going on in Saudi Arabia may reflect that 
they're pulling away from that type of activity. But we know 
they've been doing that for decades.
    One last thing about this. I just thought I would leave 
this with a story about my excursion into that region. I went--
this was shortly after they had the liberation of Afghanistan 
from the Taliban and I was in Mazar-i-Sharif, which is a 
beautiful city and has a beautiful Blue Mosque there and they 
have the doves that fly around.
    It's a beautiful place--very inspirational--and but to get 
back I had to get to Tashkent. There were some meetings in 
Tashkent I had to go to as well, and anyway it's quite a drive 
between Tashkent and Mazar-i-Sharif and it was dark.
    So I was in a car that was--and I will have to tell you we 
just had one pistol in the car and that was our only method of 
defending ourselves should anything happen, and the car--as we 
drove, it got darker and it was snowing.
    It started to snow, and here we are in the mountains and 
it's beginning to snow and it's dark and we are driving through 
and all of a sudden I noticed there were a large number of 
young men coming from the roadside and this was--I was going, 
uh-oh--you know, do we want a U.S. congressman to be kidnapped 
by some radical group in the mountains in Uzbekistan.
    And so we are watching these young men come up to the car 
and surround the car, and we're--as I say, it's dark. We are in 
the middle of nowhere. It's up in the mountains. It's snowing 
and so the driver starts talking to them and I assume the 
worst.
    But I will tell you what happened was the driver turned 
around and said, now look, these young men are offering to help 
escort us down the hill because the road is so slippery they're 
afraid the car might fall off the cliff.
    And here I was, looking at these young men with this uh-oh, 
my goodness, there must be something bad about to happen 
because I had all that stereotype in my mind.
    But instead, these young people had been taught very good 
values. They were going to help someone to escort--they were 
going to, hopefully, earn a little money because they would 
hope for a tip, I am sure.
    But they were doing something wonderful to help prevent 
some people they didn't know from having an accident and 
perhaps losing their lives by sliding off a cliff in the middle 
of a snowstorm.
    And so I think that that shows, I think, all of us--it 
showed me--that we have to not just always assume the worst and 
that we can try to actually work with people and find out who 
they are and they--and find out that there are some very 
positive elements to these cultures.
    And so anyway we appreciate--I am going to give each one of 
you 1 minute to summarize and then we are going to adjourn.
    So, Ms. Gatzinska, we'll start with you because you have 
been wanting to say something for a few minutes and I haven't 
been able to get you. So make it 2 minutes for you.
    Ms. Gatzinska. Thank you. I appreciate that.
    I just wanted to make a quick comment in response to 
religious extremism in Central Asia and I would go back to rule 
of law and the ability of citizens to seek redress for 
injustices in a lot of ways, whether it's Tajikistan or 
Kyrgyzstan when there is a sense among the population that 
there is a repression and they're not being heard.
    They are looking for outlets. Whether those be religious 
outlets or within the legal system, they will find one, and 
when the legal system or their government is failing them, they 
will keep searching until they find something that may not be 
the ideal solution.
    And when it comes to Tajikistan, which has been incredibly 
repressive toward expressions of Muslim attire or Muslims in 
general, I think the danger is that they're going over toward 
being too repressive and forcing people into hiding where 
they're more likely to encounter those extremist views that we 
are afraid of.
    Ultimately, just in summary of what I will say, I would 
like to, again, thank you for the commitment to Central Asia 
and echo both what Steve and Dr. Starr have said is that 
continued engagement is crucial.
    Whether it be with carrots or sticks, it needs to happen 
and it needs to happen now because now is where we have the 
opening in all five countries.
    Thank you.
    Mr. Rohrabacher. Thank you.
    Mr. Swerdlow. On religious extremism as well, it's a 
hornet's nest. Very complicated, but by all means, I completely 
agree with you and with Dr. Starr that the moderate form of 
Islam in Central Asia that's traditionally existed has to be 
celebrated, promoted, studied, examined.
    But by all means, these are not mutually exclusive ideas. 
You can--you can respect human rights and you can also ensure 
security at the same time, and I want to dispel the notion that 
anything I've said about religious prisoners is based on 
anecdotal evidence.
    It's based on facts collected over, you know, 15 or 20 
years. When you scratch the surface of these cases, what you 
start to understand is very often people are imprisoned because 
scores are being settled in the local communities--people being 
labelled extremist when they have absolutely no connection to 
anything like that.
    The government does have the right to ensure security. But 
it should do so while respecting due process. I also want to 
say I think when you're looking at Afghanistan and Uzbekistan, 
remember that this is a totally and entirely different legacy.
    This is a Soviet legacy, different legal and socio-
political context where literacy was extremely high--is and has 
been extremely high educational levels.
    So it's--I think it's a little bit dangerous to try to hold 
those examples up to one another. I agree with Spaska, it's 
about this overbearing approach can often tilt the balance the 
other way.
    We saw a campaign in Tajikistan to forcibly shave beards 
off of 13,000 men. Two years ago, we saw a campaign where the 
women's state committee stood on the street corners and ripped 
hijabs off of women.
    That often pushes people in the wrong--the other way, and 
we saw the number two commander of ISIS was a Tajik who, when 
he made his video to join ISIS, he referred to these sorts of 
practices of offending the religious sensibilities of Muslims 
in this sort of--his very self-serving propagandistic video.
    So that balance has to be struck. I think it can be, and 
the guide should be international human rights and the 
constitutions which very much recognize this balance of freedom 
of religion and due process and human rights.
    So thank you very much for holding this hearing.
    Mr. Starr. Mr. Rohrabacher and Mr. Meeks in, again, their 
statements by indicating this is a period of unusual 
opportunity and I think that just--we can't stress that too 
strongly. This is a rare moment. We've got to seize it.
    Now, what does that mean? First, it means understanding 
that this is now not just six countries--not five countries, 
not six.
    It is a region. We are not organized in any way to deal 
with it as a region. We need to be. Ten, 15 years ago, I 
suggested that the State Department should move Central Asia 
out from under the same bureau that Russia--that covered Russia 
because I said you will never--you will never see--recognize 
its distinctiveness if it's always treated as a sort of 
subordinate part to Russia. That was done. They established the 
Central South Asia bureau.
    Now, that needs to be adjusted so there is a real Central 
Asia unit somehow. I don't know how but it needs to be done.
    And, finally, we have to coordinate much better than we do 
these three or four stools of our policy--Pentagon, the State 
Department, the Commerce Department, and others.
    They need to work together. There has to be a single 
strategy. One has to reinforce the other and that isn't the 
case today.
    We leave our friends in the region wondering if they're 
dealing with three different governments. We should enable them 
to deal with one--the United States.
    Mr. Rohrabacher. Thank you all for your insights and 
advice. When you visualize--and I was very interested in your 
concepts of visualizing a region rather than focus on one 
country at a time--I think there's some very valid strategy 
there on how to have an impact.
    When we look at this part of the world, this is a huge 
chunk--I like to say that I believe that's the center of the 
world, and whatever is going to dominate that part of the world 
will have an influence on the rest of the world--a major 
influence--and if we--if it becomes a radical Islamic situation 
where that becomes a major force in that region, it will be a 
disaster for the things that we believe in the United States or 
in the Western civilization as promoted or a moderate Islam as 
promoted. What a disaster for that.
    But if it became an area of where the economy is thriving 
and people are able to communicate and we are able to have some 
respect for the rule of law, that could stabilize the entire 
world as well. It could serve as a very positive role.
    And so what the witnesses are saying now is we have that 
opportunity to perhaps succeed in moving toward that positive 
end as compared to what maybe even 5 years ago and 10 years ago 
looked like this would--there wouldn't be this type of opening 
and opportunity.
    So I appreciate you helping draw the attention of those of 
us in Washington and, hopefully, people who will read the 
transcript will--around the world will be a little more 
enlightened so--and we are more enlightened by your testimony.
    So thank you, and I declare this hearing adjourned.
    [Whereupon, at 5:59 p.m., the committee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record
         
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

              


                                 <all>
</pre></body></html>
